DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy


Memorandum
        DATE:    July 21, 2010                                                 Report No. OAS-L-10-07
    REPLY TO
     ATTN OF:    IG-34 (A10RL006)
     SUBJECT:    Report on "Integrated Safety Management at the Office of River Protection"
           TO:   Manager, Office of River Protection

                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy (Department) regulates and inspects the safety of its own
                 facilities and operations, many of which involve radioactive or hazardous materials. On
                 October 15, 1996, the Department issued DOE Policy 450.4, Safety Management System
                 Policy, which recognizes that Safety Management Systems provide a formal, organized
                 process whereby people can plan, perform, assess, and improve the safe conduct of work.
                 The Safety Management System process is institutionalized through Department
                 directives and is incorporated into contracts to establish Department-wide safety
                 management objectives, guiding principles, and functions. Department policy requires
                 that safety be systematically integrated into management and work practices at all levels,
                 thus enabling mission accomplishment as well as protection of the public, worker, and
                 environment.

                 The Department's Office of River Protection (ORP) has responsibility for the
                 storage, treatment, and disposal of over 53 million gallons of highly radioactive and
                 hazardous waste generated during four decades of plutonium production. This
                 waste is currently stored in 177 large underground tanks while it awaits construction
                 of the Waste Treatment Plant; a facility that will treat and immobilize the waste.
                 Due to the dangerous nature of these operations, it is imperative that ORP develop
                 and implement an effective safety management system. Aware of the risks involved
                 in safely managing this waste, in February 2009, ORP officials suggested that the
                 Office of Inspector General review compliance with high radiation area
                 requirements. In light of this request, we initiated this audit to determine whether
                 the ORP has maintained an effective Integrated Safety Management (ISM) system
                 at its contractors.

                 CONCLUSION AND OBSERVATIONS

                 We found that ORP had not always ensured that effective ISM systems were maintained
                 by its contractor. Even though its own reviews and those performed by external
                 oversight organizations revealed a number of problems with contractor safety systems,
                 ORP had not always ensured that corrective actions were effective and that predictive
                 analyses such as trending of findings were performed.
                              Safety Related Deficiencies

A review of ORP's contractor, Washington River Protection Solutions (WRPS),
identified numerous deficiencies within the contractor's Radiation Control and
Emergency Response Programs since taking over the tank operations contract on
October 1, 2008. During that time four major reviews, performed by both Departmental
officials and external oversight organizations, have revealed deficiencies with the
contractor's ISM system. Examples of these findings include the following:

       In April 2009, the Richland Operations Office, in conjunction with ORP,
       performed an assessment of WRPS' Emergency Management Program. The
       assessment determined that the contractor's performance was marginal in 4 of the
       10 program elements, including program administration, training and drills,
       emergency response organization, and emergency facilities and equipment, and
       provided an overall rating of marginal.

       In a January 2010 review, the Defense Nuclear Facilities Safety Board identified
       four deficiencies in the contractor's ISM system related to work planning and
       execution, including: (1) work planning directives were unnecessarily complex
       and confusing; (2) the hazard analysis process was not well defined or executed;
       (3) a team approach to walk-downs, verifications, and hazard analysis was not
       adequately employed; and, (4) the workforce modified work procedures ad hoc
       when the procedures could not be performed as written. These deficiencies
       resulted in work instructions that could not be followed as written and incomplete
       controls for authorized work.

       In a February 2010 review, ORP officials evaluated 26 separate functions within
       WRPS' Radiological Program based on the results of previously performed
       assessments and surveillances. Examples of functions evaluated included
       management, work planning, emergency preparation, and radiation control
       operations. Using a "stoplight" approach to evaluate each function, ORP officials
       found only four functions were considered sound (green); two functions already
       had corrective actions in progress (orange); and, 12 functions were rated marginal
       (yellow). Eight functions were considered to warrant attention (red), including
       corrective action, assessment program, contamination control, scene response, and
       field practices.

       In response to the February 2010 review, ORP conducted a formal assessment of
       WRPS's Radiation Control Program from February through April 2010. This
       latest assessment identified 16 findings. Significant findings cited in the
       assessment included:

           Implementation of the Corrective Action Management System did not
            provide objective evidence of a process that resulted in
            management/quality improvement in the Radiation Control Safety
            Program;

                                    2
            Implementing procedures were not sufficiently robust to insure that
             radiological work was performed consistently to regulatory standards;

            Radiation control work observed by the assessment team was not
             performed to acceptable standards; and,

            The WRPS Emergency Management Program did not integrate planning,
             preparedness, response and recovery activities, resulting in emergency
             responders not being able to ensure that they could effectively respond to
             and mitigate the consequences of radiological anomalies.

Furthermore, several of the deficiencies identified in areas such as high radiation area
control, availability of decontamination stations, posting of radiological areas, and
radiological safety training, had occurred previously, indicating that contractor corrective
actions were not fully effective in preventing their reoccurrence. For example, the
Defense Nuclear Facilities Safety Board's January 2010 review noted that tank farm
employees were performing waste transfer operations at night without sufficient lighting.
One of the significant lessons learned from a prior spill in 2007 was that waste transfers
should not be conducted at night without adequate lighting. Additionally, an assessment
performed in April 2008 found problems with high radiation area key controls. Similar
findings were identified in a 2006 assessment, which noted that problems identified in a
2004 assessment had not been corrected.

                         Management of Corrective Actions

Weaknesses within WRPS may not have been effectively corrected because ORP had not
implemented a comprehensive system of controls for corrective action oversight and
management. DOE Guide 414.1-5, Corrective Action Program Guide, identifies a
feedback and improvement process that begins with identification of issues through
assessments and events, progresses through corrective action planning and
implementation, and culminates with evaluation of the effectiveness of corrective actions.
This process requires involvement by senior management in corrective action oversight,
verification that corrective actions have been taken and are effective, and the use of
trending to identify potential problem areas. However, ORP had not incorporated all of
these aspects into an effective corrective action program.

Specifically, ORP senior management's oversight was focused on issue identification
rather than on the entire corrective action management process. ORP had established the
Assessment Program Committee, consisting of representatives of senior ORP
management, whose primary purpose was to review planned and ongoing assessments.
However, this approach did not provide sufficient focus on reviewing corrective actions,
trending, or verification of the effectiveness of corrective actions taken. These
responsibilities were assigned to individual managers and, as demonstrated by the various
reviews outlined in this report, whatever actions they may have taken did not prevent
reoccurrences. Although ORP did perform additional assessments, key activities that are
part of an effective corrective action management program such as evaluation of


                                      3
corrective action plans, effectiveness reviews, and trending were not effective in ensuring
that deficiencies were corrected and prevented from reoccurring.

ORP also lacked an effective process for determining if corrective actions were effective.
The responsibility for determining if a verification assessment was needed was assigned
to the individual managers over each program. However, ORP policies and procedures
did not require managers to provide a justification or reason why they did not perform an
effectiveness assessment. Furthermore, there was no requirement for a group external to
line management, such as the Assessment Program Committee, to review decisions on
corrective action effectiveness assessments.

Additionally, ORP did not have a centralized system for monitoring contractor
performance. Although ORP and its contractors managed several database systems that
reported safety issues, it lacked a comprehensive corrective action program database to
report, track, and close all ORP and contractor identified issues in a consistent manner.

Moreover, ORP did not have an effective program for trending in place. Individual
managers were assigned the responsibility for performing trending. In fact, an internal
assessment found that managers were not performing trending, as required by ORP
guidance. Also, ORP's data tracking system for monitoring corrective actions did not
have the functions needed to perform trending analysis. The database was designed to be
able to perform these functions; however, the specific programming necessary to permit
the performance of these tasks was never completed. There were also inconsistencies in
data inputs into the database, including some data not being entered for certain fields or
data being entered in nonstandard formats that made trending analysis difficult. Finally,
ORP did not track issues and findings identified by its contractors. Although ORP had
access to the contractor's corrective action management databases, it did not incorporate
that information into its own tracking system for trending purposes. Instead, ORP
required its contractors to perform trending analysis on those issues and findings they had
identified and to provide the resulting information to ORP on a quarterly basis for review
by the Assessment Program Committee.

                            Worker and Environmental Safety

Although none of the findings identified resulted in any significant contamination, injury
of workers, or contamination of the environment, the number and types of findings are
indicative of an overall weakness in WRPS's ISM system. A number of ORP officials
indicated that, if left uncorrected, these deficiencies could eventually result in worker
contamination and injury.

During the course of our audit we learned that ORP was aware of these issues and was
developing corrective actions to address the previously described deficiencies. Several
key actions being considered include the following:

        Suggesting a peer review of assessments of corrective action performed by ORP
        officials;


                                     4
        Establishing a single point of contact under the Assessment Program Manager
        for data input into the ORP tracking system;

        Developing trending analysis tools and metrics based on those used by the
        Nuclear Regulatory Commission;

        Establishing a guideline for determining when verification assessments of
        corrective actions should be performed for findings of non-compliance that could
        affect quality, worker health, or safety; and,

        Developing modifications to its database software to allow for trending analysis.

SUGGESTED ACTIONS

To help ensure the development of an effective system of controls for oversight and
corrective action management, we suggest that the Manager, ORP:

    1. Evaluate and implement, as appropriate, the proposed corrective actions being
       developed; and,

    2. Take necessary actions to ensure that senior ORP management is actively
       involved in all phases of the corrective action management process, including
       corrective action plan review and verification and trending of data.

Since no formal recommendations are being made in this report, a formal response is not
required.

We appreciate the cooperation of your staff during this audit.




                                 Daniel M. Weeber, Director
                                 Environment, Technology, Corporate
                                   and Financial Audits Division
                                 Office of Inspector General

Attachments

cc: Manager, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Liaison, Office of Environmental Management, EM-4.1
    Audit Liaison, Office of River Protection




                                     5
                                                                                      Attachment


SCOPE AND METHODOLOGY

This review was performed between December 8, 2009, and May 5, 2010, at the Department of
Energy's (Department) Office of River Protection (ORP) in Richland, Washington. The scope of
our audit included a review of ORP's oversight of Integrated Safety Management (ISM) at its
contractors. To accomplish the objective of this audit, we:

        Obtained and reviewed Departmental directives and guidance concerning ISM and
        Corrective Action Management;

        Obtained and reviewed ORP implementing procedures concerning assessment program
        and corrective action management;

        Reviewed the results of assessments and surveillances of contractor performance related
        to ISM;

        Held discussions with current and former ORP officials concerning oversight activities
        of contractor ISM performance; and,

        Reviewed proposed changes to ORP's integrated assessment program.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We also assessed performance measures in accordance with the
Government Performance and Results Act of 1993. We found that the Department had
established a performance measure for Washington River Protection Solutions to successfully
complete its Phase I and Phase II verification of ISM System implementation. We did not assess
the reliability of computer-processed data, since we did not rely on it to accomplish our audit
objective. An exit conference was held on June 29, 2010.




                                                6
